HHS/OIG - Audit, "Audit of Administrative Costs Claimed by Blue Cross and Blue Shield of Texas, " (A-06-01-00044)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of Administrative Costs Claimed by Blue Cross and Blue Shield
of Texas," (A-06-01-00044)
April 16, 2002
Complete
Text of Report is available in PDF format (4.7 MB). Copies can also be obtained
by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Conrad and Associates, L.L.P., certified public accountants, under contract
with HHS/OIG, performed a financial and compliance audit of expenditures claimed
by Blue Cross Blue Shield of Texas (BCBS) related to administration of the Medicare
Part A and Part B programs for the period October 1, 1998 through September
30, 1999.  BCBS was unable to provide supporting documentation for various
transactions selected for testing.  As a result, expenditures totaling
$458,377 were not adequately supported.  The self funded insurance program
costs were overstated by $528,745.  BCBS imputed $820,796 as an expense
to the Final Administrative Cost Proposals for return on investment.  The
contractor used facilities capital employed as its base in applying the cost
of money rate in calculating the expense.  However, documentation of facilities
capital employed was not maintained or provided for our review.  BCBS did
not dispute the questioned costs as presented but reserved the right to comment
on this issue at a later point in time.  BCBS stated that the use of depreciation
expense does not reflect the asset acquisition or disposals that have an effect
on the return on investment computation.